<html>
<title> - NATIONAL GUARD SUPPORT IN THE FIGHT AGAINST ILLEGAL DRUGS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
       NATIONAL GUARD SUPPORT IN THE FIGHT AGAINST ILLEGAL DRUGS
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 1997

                               __________

                           Serial No. 105-82

                               __________

Printed for the use of the Committee on Government Reform and Oversight



                      U.S. GOVERNMENT PRINTING OFFICE

46-497                       WASHINGTON : 1998
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001










              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
              Andrew Richardson, Professional Staff Member
                          Ianthe Saylor, Clerk
          Mark Stephenson, Minority Professional Staff Member
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 1997................................     1
Statement of:
    Owen, Brad, Lieutenant Governor of Washington; Michael J. 
      Bowers, attorney general, State of Georgia; Major General 
      Russell C. Davis, vice chief, National Guard Bureau; James 
      E. Copple, president and CEO, Community Anti-Drug 
      Coalitions of America; and Ronald E. Brooks, chair, drug 
      policy committee, California Narcotics Officers' 
      Association................................................     7
Letters, statements, etc., submitted for the record by:
    Bowers, Michael J., attorney general, State of Georgia, 
      prepared statement of......................................    15
    Brooks, Ronald E., chair, drug policy committee, California 
      Narcotics Officers' Association, prepared statement of.....    43
    Copple, James E., president and CEO, Community Anti-Drug 
      Coalitions of America, prepared statement of...............    34
    Davis, Major General Russell C., vice chief, National Guard 
      Bureau, prepared statement of..............................    24
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............     4
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, letter dated May 12, 1997................    71
    Owen, Brad, Lieutenant Governor of Washington, prepared 
      statement of...............................................    10















       NATIONAL GUARD SUPPORT IN THE FIGHT AGAINST ILLEGAL DRUGS

                              ----------                              


                        WEDNESDAY, MAY 14, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, Mica, Shadegg, 
LaTourette, Barrett, and Cummings.
    Staff present: Robert Charles, staff director/chief 
counsel; Andrew Richardson, professional staff member; Ianthe 
Saylor, clerk; Michael Yeager, minority counsel; Mark 
Stephenson, minority professional staff member; and Ellen 
Rayner, minority chief clerk.
    Mr. Hastert. The hour of 1 having arrived, the Subcommittee 
on the National Security, International Affairs, and Criminal 
Justice will come to order.
    Today's hearing will focus on the important role that the 
National Guard has played in the Nation's counterdrug effort. 
Before I discuss the counterdrug mission of the National Guard, 
I want to review the bidding. I think the continuing and 
deepening nature of the menace we are facing from illegal drug 
use and the drug cartels cannot be overemphasized.
    A few facts make the point. Teenage drug use has doubled in 
the last 5 years. Our children are using LSD and other 
hallucinogens as well as cocaine, heroin, methamphetamine and 
marijuana at shocking levels. Heroin's purity has as the same 
time risen from 10 percent to 90 percent over the past two 
decades, and marijuana is now up to 25 times more potent than 
in the hippy era in the late 1970's. MDMA, commonly referred to 
as ecstasy, has been used by 5 percent of 10th and 12th 
graders, and is creeping into use by 8th graders. MDMA is just 
one example of new and emerging drugs that threaten our youth. 
Sadly, parents have stopped talking to their children about the 
dangers of drug abuse.
    I was in Dixon, IL, kind of the heartland of America last 
week, talking to an assembly of 250 eighth graders. I asked how 
many of your parents have sat down and talked to you about 
drugs. Only about one in five of those kids raised their hands. 
That is less than the average we talk about here, and that is 
not good.
    It is with facts like these in mind that we are here to 
implore the administration to continue fully funding the 
National Guard's counterdrug efforts, from border operations to 
crucial support for local law enforcement, from critical 
counterdrug training to life saving and innovative antidrug 
prevention. No mission is more important or more underfunded.
    Here are a few more facts in a nutshell. Historically, the 
National Guard has performed missions tasked by the Governors. 
As the drug epidemic has increased, the Governors have turned 
to the National Guard to assist State and local governments to 
combat the flow of illegal drugs. Indeed, they deeply rely on 
the National Guard.
    In fact, if you were traveling to the Southwest Border, you 
could see the countless contributions being made by the 
National Guard first hand. National Guard units in California, 
Arizona, New Mexico, and Texas assist with counterdrug 
operations across our over 2,000 mile Southwest Border.
    Beyond this is the leadership that the Guard has played in 
establishing the National Interagency Counterdrug Institute, 
known as NICI, in San Luis Obispo, CA, where officials from all 
government agencies meet to train and to coordinate counterdrug 
efforts. One of the greatest challenges facing those of us who 
participate in counterdrug policy is assisting with agency 
coordination between Federal, State and local officials, and 
the National Guard is at the forefront of this effort. NICI is 
doing this.
    But beyond all this, at the United States-Mexico border one 
can view the roads that Guard engineers constructed that are 
giving law enforcement officials better access to the border 
and barriers that are deterring drug smugglers. At the land 
port of Otay Mesa, CA, Guardsmen assist Immigration and Customs 
officers with cargo inspection, traffic control, and security. 
In Arizona, they operate sophisticated aircraft and 
surveillance systems that help law enforcement pinpoint 
methamphetamine labs and marijuana fields. These aircraft also 
patrol the border and lend invaluable assistance and 
intelligence to law enforcement officers on the ground.
    However, I would be remiss if I mentioned only the National 
Guard's interdiction and law enforcement programs. In Arizona, 
for example, Project Challenge is also run by the Arizona 
National Guard. This program is reaching out to the community 
by providing positive alternatives to drugs and gangs that have 
victimized far too many young people. These demand reduction 
and youth assistance programs deserve our fullest support, and 
the administration's proposed deep cuts in the National Guard 
would eviscerate not only their interdiction and law 
enforcement role, but also their prevention efforts. These are 
vital programs and the Guard has performed the counterdrug 
mission with distinction.
    But let's be frank. To continue this high level of mission 
performance, the Guard needs the right assets and support. I 
have grave concerns that the budget does not support this role 
for the Guard. Indeed, his lack of support is starkly reflected 
in his fiscal year 1998 budget. The President's budget 
submission for fiscal year 1998 reflects a 42 percent cut for 
National Guard support plans. That simply is unconscionable. 
This proposal, if adopted, would reduce the Governors' State 
plans funding from their fiscal year 1997 level by $76.6 
million. How can we, in good conscience, adopt a stance like 
that? These funds provide critical National Guard assistance to 
State and local law enforcement and individual communities in 
their fight to reduce the supply and the demand for illegal 
drugs. The Guard uses and is trained on specialized 
surveillance equipment and other assets that State and local 
governments cannot afford to operate.
    A reduction in funding of the magnitude proposed by the 
President would swiftly result in severe reductions in aviation 
capabilities, intelligence gathering and analysis, as well as 
tactical and engineer support to State and local law 
enforcement. Does anyone doubt that this would have severe 
implications for the Nation's counterdrug efforts? I think the 
answer is obvious. We need to support the National Guard's 
counterdrug efforts and support them fully.
    And before asking the witnesses to begin, I will yield to 
my colleague and friend, ranking member, Tom Barrett, for any 
comments he might have.
    [The prepared statement of Hon. J. Dennis Hastert follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Barrett. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    I think we all recognize the importance that the National 
Guard plays in not only in the counterdrug effort, but in 
security matters throughout the country.
    I would like to welcome our distinguished panel of visitors 
today, Lt. Governor Owen, Attorney General Bowers, General 
Davis, Mr. Copple and Mr. Brooks. Together with the men and 
women of the National Guard you have made significant 
contributions in our fight against illegal drugs. I commend you 
for your work.
    The National Guard plays a unique role in our country's 
counterdrug effort. The men and women of the National Guard 
forces have all the training, organization and capabilities of 
our Armed Forces, which are second to none in the world. But 
Guard members bring even more to bear in this fight. National 
Guard forces are community based, working together with law 
enforcement and community organizations like those which make 
up the Community Antidrug Coalition of America.
    Guard members know and understand the differing needs of 
their communities. With training and sophisticated surveillance 
and communications systems, the National Guard adds important 
operational capabilities to law enforcement agencies on the 
ground. And we have seen results. Thanks to the National Guard 
involvement, law enforcement agencies in 1996 seized 84 metric 
tons of cocaine and 371 metric tons of processed marijuana, and 
thanks to help from the Guard, the law enforcement made over 
128,000 drug-related arrests.
    Just as important, National Guard members serve as mentors 
and role models in prevention programs around the country, 
teaching kids how to resist gang involvement and peer pressure 
to use drugs and building self-confidence and leadership 
skills. In my home State of Wisconsin, the Guard has been hard 
at work. Its Challenge By Choice low ropes course teaches young 
people problem solving and self-confidence.
    Working with the Milwaukee Police Department, the Guard's 
gang resistance and education program teaches 7th graders at 
school and at summer camp to avoid gang influences and become 
responsible members of the community. And as part of the 
Experimental Aircraft Association International Convention, the 
Wisconsin National Guard provided drug-related information to 
more than 60,000 people. This is important work. I look forward 
to hearing about your past successes and challenges for the 
future.
    With respect to the budget issue, frankly, it is quite easy 
to criticize the President's budget when the Republicans didn't 
produce a budget of their own. It is my belief that the 
American people don't want us to sit up here squabbling on 
partisan issues and want us to work together. That is why I am 
pleased that the President extended a hand to work with the 
Republican majority, and, frankly, I think it is sort of a 
cheap shot to go after the President when we are trying to work 
together.
    Thank you very much.
    Mr. Hastert. If there are any other opening statements, we 
will ask that they be entered into the record. And without 
objection.
    Today, we are joined by distinguished representatives from 
Government and the private sector and from several States. We 
are joined by the Honorable Brad Owen, the Lieutenant Governor 
of Washington, welcome; the Honorable Michael Bowers, who is 
the attorney general of Georgia, welcome.
    We are also pleased to have Major General Russell Davis 
here, General, the vice chief of the National Guard Bureau, who 
will present us with an overview of the Guard's contribution 
and counterdrug operations; Mr. James Copple, director of 
Community Anti-Drug Coalitions of America, thank you for being 
with us, and Mr. Ronald Brooks, chair of the Drug Policy 
Committee of the California Narcotics Officers' Association. 
The gentlemen will present the views of their respective 
organizations.
    Gentlemen, we are pleased to have you here today and look 
forward to your testimony. As a matter of committee rules, the 
Committee on Government Reform and Oversight swears in all 
witnesses and I would, therefore, ask you to stand up and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses have 
answered in the affirmative, and Lt. Governor Owen, please 
proceed.

  STATEMENTS OF BRAD OWEN, LIEUTENANT GOVERNOR OF WASHINGTON; 
 MICHAEL J. BOWERS, ATTORNEY GENERAL, STATE OF GEORGIA; MAJOR 
 GENERAL RUSSELL C. DAVIS, VICE CHIEF, NATIONAL GUARD BUREAU; 
    JAMES E. COPPLE, PRESIDENT AND CEO, COMMUNITY ANTI-DRUG 
COALITIONS OF AMERICA; AND RONALD E. BROOKS, CHAIR, DRUG POLICY 
     COMMITTEE, CALIFORNIA NARCOTICS OFFICERS' ASSOCIATION

    Mr. Owen. Thank you, Mr. Chairman. I appreciate both of 
your remarks on the issue.
    Let me first say at a time when substance abuse is rising, 
especially amongst our children, we need to be recruiting 
troops, shoring up our forces, and analyzing our battle plans, 
not selling the war effort short.
    I hope that the esteemed members of the subcommittee do not 
take offense to my using phrases associated with war. I am a 
wholesale, 100 percent proponent of prevention and education as 
the key elements in our strategy to take on drug abuse. But, 
when faced with the absolutely devastating consequences of the 
rising tidal of substance abuse, we have to prepare ourselves 
and our communities for an all out assault.
    If any foreign country inflicted as much pain and 
suffering, killed as many of our people, threatened as many of 
our children, injured 350,000 of our newborn American babies 
each year, or stole as much of our property as drugs and drug 
dealers do, we would be in an all out war of which the cost 
would not be an issue.
    Even though there is an absolute correlation between the 
decrease in our Nation's public and private investment in 
substance abuse prevention and the recent dramatic increase in 
the use of illegal drugs, we still have to battle to maintain 
what little we have. The proposal to cut the National Guard 
support plans by 42 percent will make this cycle a great deal 
worse.
    We have got to find a way to resensitize America, our 
families and friends, policymakers and media to the seriousness 
of substance abuse and to the wisdom of consistent, long-term 
funding of substance abuse prevention.
    In Washington State, the strongest partnerships that we 
have forged have been between the social services, school 
community, law enforcement, and military community. Every 
substance abuse prevention organization that I know of has had 
an absolutely excellent experience with the Washington National 
Guard. The high profile of the National Guard, with its high 
physical and moral standards, brings a great deal of respect 
and impact to our community drug prevention efforts.
    The drug demand reduction effort by the National Guard is 
involved with youth leadership training camps and mentoring 
programs throughout my State. National Guard personnel annually 
participate in or facilitate over 100 public/private school 
visitations, 75 community events, 25 youth leadership camps, 50 
civic group presentations, and 15 onsite training/mentoring 
programs.
    The National Guard has strengthened school based antidrug 
programs and, of real importance, it has served as a catalyst 
for coalition development among the diverse groups and 
organizations across Washington State.
    In terms of the very important interdiction efforts of the 
National Guard, I find it difficult to believe we are even 
talking about cutting this funding. The Counterdrug Task Force 
provides support to 30 local, State, and Federal law 
enforcement agencies, and 20 statewide multiagency, 
multijurisdictional narcotic task forces. Specially equipped 
aircraft provide regional support when asked by law enforcement 
agencies.
    During the last 18 months, approximately 2,488 flight hours 
were flown in direct support of law enforcement agencies. 
Because of the shortage of trained personnel with the Guard and 
the increasing demand for services, approximately 15 percent of 
requests are actually turned down. In the last 18 months, 
National Guard interdiction efforts in Washington State were 
instrumental in seizing in excess of $308 million in narcotics 
and associated assets and approximately 4,047 arrests.
    Make no mistake, in the battle against substance abuse, the 
National Guard has made critical links and partnerships within 
my State. It is an investment with a great return.
    Marijuana use by our kids is higher than the national 
average. Methamphetamine use has been described as at epidemic 
levels, and Seattle's heroin problem was identified and covered 
in national magazines as severe. Our ports and borders make our 
State an easy mark for importation and distribution. 
Consequently, Washington State has been identified as a high 
intensity drug trafficking area.
    I have every confidence that my troops on the front lines 
of prevention in Washington State will fight well, and we can 
beat back this epidemic. But we need the National Guard.
    The impact of the National Guard's efforts to stop drug 
abuse is real and is powerful. The impact is touching the lives 
of tens of thousands of our children and our families. 
Unfortunately, the impact of the National Guard's efforts will 
be gone if this funding is taken away. We simply cannot let 
that happen. When we call, in Washington State, we need the 
National Guard.
    Thank you, Mr. Chairman, and members of the committee.
    Mr. Hastert. Thank you, Governor Owen.
    [The prepared statement of Mr. Owen follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Bowers.
    Mr. Bowers. Mr. Chairman, members of the subcommittee, I 
appreciate very much this opportunity to be with y'all. I am 
the attorney general of Georgia, but I am also an International 
Guardsman and I work for General Davis on my left as chairman 
of the National Guard Counterdrug Board, so it's with those two 
perspectives that I am going to share some remarks with you, 
but I am here as the capacity of the attorney general of my 
State.
    First of all, let's look at from a national perspective 
what is the problem. The problem is for the past few years the 
budget for the counterdrug program of the National Guard has 
gone up and down like a yoyo. In 1973, we had $193 million for 
State counterdrug programs. By 1996, that had been reduced to 
$134 million. In fiscal year 1997, it went back up to $180 
million, and now it is being proposed to go back down to $132 
million.
    Well, whether you think the National Guard does good or 
bad, that's no way to run any organization, because you can't 
plan, you can't predict, you can't be dependable to your 
customers, in this case the States and the various law 
enforcement agencies.
    And the way this problem manifests itself, and it will 
manifest itself if this $132 million budget is put into place, 
is that all of the accomplishments of the National Guard, both 
Army and Air, with respect to the counterdrug program are going 
to be put into jeopardy, and I think it's worthwhile to look at 
those very briefly.
    As Mr. Barrett mentioned earlier, some of those are very 
significant accomplishments: 128,000 arrests the National Guard 
participated in in fiscal year 1996; $337 million in seizures 
of assets; 1.9 million marijuana plants eradicated; 371 metric 
tons of processed marijuana. All of these sorts of things are 
placed in jeopardy if that budget comes down, and I don't think 
any of us, irrespective of our politics, would want any of 
these accomplishments jeopardized by the reduction of that 
budget. And that's what happens.
    So from a national perspective, as best I can discern that, 
I would urge y'all to do two things. No. 1, put somewhere like 
$200 million or work toward putting somewhere like $200 
million, working through the appropriators and the authorizers, 
in the budget for the National Guard and fence that money so it 
can only be used for that single purpose.
    Now, if you will, let me turn to the State. Let me be very 
specific with you as to what is going to happen if this budget 
is reduced, the National Guard budget for counterdrugs to $132 
million. This is my State. We are about a $3 million program, 
mid level if you compared all of the programs from California 
down to the smallest one. We are not the biggest, about in the 
middle, fairly representative.
    We have about 70 employees in this program. This is what my 
people tell me will most likely happen: Now, when I say ``my 
people,'' I am talking about the people in the National Guard, 
and I can assure you from a law enforcement perspective if 
these things happen it will cripple the 159 sheriffs and the 
various police chiefs in Georgia in terms of their counterdrug 
fight.
    A 30 percent reduction is predicted in seizures, both of 
assets, plants, processed drugs and whatever; 30 percent 
reduction if this budget is cut in the manner that's planned. 
Thirteen drug law enforcement agencies will lose their National 
Guard support. Now, what kind of agencies are these? The DEA, 
the Georgia Bureau of Investigation, the U.S. Marshall Service. 
The Atlanta HIDTA, recently established, it will also lose 
support.
    Seven multi-jurisdictional drug task forces will lose 
highly trained intelligence analysts. Five drug enforcement 
agencies will lose their operational investigative case support 
analysis. This is one of the most important. Our raid unit, 
which is our reconnaissance and interdiction detachment, will 
lose one pilot and two mechanics, and that means the marijuana 
eradication in Georgia is going to severely suffer.
    Now, not all of the marijuana eradication is done by the 
Guard, but a great portion is, and in 1995, fiscal year 1995, 
we destroyed over 30,000 plants. Now, it dropped way down in 
1996 because so much effort was devoted to the Olympics, it 
dropped down to 6,000 plants, but that effort is going to be 
severely restricted by this.
    We have an operation called Silent Watch. They are going to 
be reduced by a significant percentage. All of our vehicles, 
all of the National Guard vehicles being used for the 
counterdrug program are going to be in jeopardy.
    Georgia is a big State. It may not be as big as some of 
y'all's, but it's the biggest State east of the Mississippi 
River. We need a lot of vehicles. Fifty percent of the Federal 
law enforcement officials that are trained at the Federal Law 
Enforcement Training Center at Brunswick probably won't get 
trained.
    So from a Federal perspective, I would urge you from the 
perspective of a State law enforcement legal officer, which I 
am, to restore the proposed cut in the National Guard budget, 
and more specifically, plus it up to about $200 million so we 
can at least accomplish about 80 percent of what we are called 
upon to accomplish through the local law enforcement agencies, 
$200 million, and then fence it so nobody can touch it.
    And I would challenge anyone to look at the record of the 
National Guard, because you are going to find that of all the 
DOD agencies, and I am not being disparaging of anybody, but of 
all the DOD agencies, nobody can match the National Guard 
dollar for dollar in terms of its effectiveness in fighting 
drugs in this country. Thank you.
    Mr. Hastert. Thank you, General Bowers.
    [The prepared statement of Mr. Bowers follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. And now Major Davis.
    General Davis. Thank you, distinguished members of the 
subcommittee. I would first like to thank you for holding this 
hearing so we can have an opportunity to hear about the program 
and understand the potential impacts on it. But as importantly 
on behalf of Lt. General Ed Baca and the over 500,000 folks in 
the National Guard, I would like to say thanks for empowering 
us and allowing us to go out and assist the communities in this 
great Nation in their fight against drugs, and we do it at all 
levels.
    As most of you are aware, the National Guard has a long 
history of service to our great country. We did it during 
colonial times protecting the frontiers, as we expanded west, 
during the Revolutionary War, two world wars, Korea, Vietnam, 
and the sands of Desert Storm. We still have some folks who 
currently serve over there along with other soldiers and airmen 
from the National Guard and Reserve in Bosnia.
    As the founding fathers envisioned, the National Guard has 
and always will be there for the call of this Nation, their 
States, and communities in time of crisis. The National Guard 
is called upon to help this time in our communities, a call 
that we think is a call to serve and defend American's 
children. This call to duty is one which we are proud and 
pleased to have the opportunity to once again serve.
    Counterdrug operations are a high priority in the national 
security of the United States, and that's a top notch mission, 
we think, for the National Guard. Each day we have about 4,000 
soldiers and airmen, citizen soldiers, if you please, working 
to restore health, safety, and economic well-being to the 
communities of this great Nation that are infested by illicit 
drugs.
    Operating in programs that were authorized starting back in 
1989, the National Guard has been a principal contributor to 
supporting this great fight against illicit drugs in terms of 
distribution, use, as well as providing specific support to 
local, State, and national Federal law enforcement agencies.
    The National Guard's long-range counterdrug plan directly 
supports all five of the Presidents' National Drug Control 
Strategy goals. In 1996, support of law enforcement agencies 
resulted in eradication of almost 2 million marijuana plants, 
seizure of 371 metric tons of marijuana, 84 metric tons of 
cocaine, the confiscation of over $336 million in cash. And 
when you combine all of that together, we talk in terms of 
street value, value of illicit drugs of over $10 billion.
    In 1997, the Guard will continue to conduct a lot of these 
operations, some 10,000 of them throughout the territories and 
jurisdictions of the United States.
    In terms of eradication as well as interdiction, we will be 
doing our jobs. Approximately two-thirds of these missions will 
be in support of local and State law enforcement agencies. The 
other, it's almost 40 percent, will be in support of Federal 
law enforcement agencies, and this will be in the form of task 
force multijurisdictional, as we have in many instances.
    This support continues to be provided on a volunteer basis. 
Our people volunteer to come out and we do pay them, but they 
take their own time to come out, a lot of time on evenings, 
weekends. We have a few folks that are full time. The bulk of 
them go to their regular jobs and they will give us 1 or 2 days 
a month to participate in this great effort.
    Let me talk about some of the operational aspects of law 
enforcement agency support. We have eight aircraft, which are 
C-26s. They are metroliners, civilian style aircraft. We place 
a part on the bottom of it and go out and work with law 
enforcement agencies and do photo recon and infrared 
surveillance, and we help support the marijuana effort.
    Marijuana grows at a very high temperature. Right after 
sunset I have had the opportunity to go out in one of these 
aircraft, and at night they tend to glow in the dark almost. 
They grow at much higher rates and temperatures than other 
plants and it's easy to identify them.
    In addition to those eight aircraft, and we will have two 
more coming on line later this year in New Mexico and Arizona. 
We still have and have today 116 Army helicopters which we have 
out there with similar type equipment. They don't have the 
range or the endurance, but they get out there and can do it. 
With thermal imaging they can work with not only just the 
eradication, but also with these. They are able to do some 
observance of drug transactions and that kind of thing taking 
place.
    The Air National Guard also has some C-130 aircraft which 
house tactical reconnaissance photos, and we can go out and 
look in areas and determine where points are during the day as 
well as support directly in the prosecution.
    One of the problems we have, if we say this drug bust took 
place at the corner of 5th and U here in DC, we take you down 
5th and put you on that corner, we can take you down U and put 
you on the corner and you know exactly where you are.
    We are also operating 600 intercept missions in Panama with 
our F-16s and rotating units. I was just talking to Governor 
Owen about some of the folks from Washington involved in that 
process. The National Guard is not in this alone. We are 
fighting and working with a large number of agencies throughout 
the Nation, and that's important.
    Our role is support to law enforcement and other agencies. 
Recently we have established a relationship, about a year and a 
half ago, with CADCA, and Mr. Copple is going to talk about 
that in a little bit here. But we are working with drug 
coalitions, working in the community, trying to make that work.
    During the next fiscal year, the Guard will network as a 
potential to educate and motivate almost 10 million young 
people under the age of 18 to reject the use of illicit drugs, 
and we think that's important, as does he. We think education 
is the key to avoiding and preventing young people being 
involved in drugs.
    Mr. Chairman and members of the committee, as I appear 
before you here today, our National Guard is located in 3,400 
communities throughout the Nation and have over 4,000 young 
people out there every day working on this. Our commitment to 
the successful
prosecution of this war is no less than our commitment to 
prosecute our Nation's defense throughout the rest of the 
world.
    Mr. Chairman and members of the committee, I thank you for 
the opportunity to appear before you.
    Mr. Hastert. Thank you, General.
    [The prepared statement of General Davis follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Now, Mr. Copple.
    Mr. Copple. Thank you, Mr. Chairman and members of the 
committee. I want to begin by expressing my appreciation to 
this committee and its work in a bipartisan way, and especially 
your leadership, Mr. Hastert, in your work around the Drug Free 
Communities Act and your interest to protect the interests of 
communities and what they are doing locally to address this 
issue.
    At a time when our organization has supported the 
President's National Drug Control Strategy, we have at the same 
time been very concerned about the lack of resources directed 
to communities. We are at the same time concerned with what is 
happening with the budget with the National Guard.
    In the past 2 years, we have developed a close working 
relationship with the National Guard that we believe has been a 
critical piece in our contribution coalition building. The 
problem of drug abuse is not only a problem in the local 
community or individual States or the Nation as a whole, the 
problem is a national problem that requires national solutions 
effectively applied in local communities.
    There is no single sector to blame for many of the 
statistics and data you cited around increased drug abuse, nor 
can any sector adequately address this issue alone. This 
problem will require persistent and consistent messages from 
preschool to high school from multiple sectors of the 
community. The schools, parents, workplace, media, faith, 
medical, criminal justice community must be consistent in their 
messages and realize that it requires diligence and persistence 
if we are to recapture the high ground necessary to win this 
struggle.
    I have been asked to describe our relationship with the 
National Guard and its impact. As General Davis has indicated, 
the Guard is in 3,400 communities; Community Antidrug 
Coalitions of America is in 4,300 communities in every State 
and in 3 territories. Several weeks ago we sent out a 
communication to our members regarding the potential budget 
issues around the National Guard, and there was no other single 
issue in communication to our members that generated a more 
dramatic response to our office of what can we do, because the 
Guard is becoming a major, an important voice in local 
communities addressing this issue.
    And there are four areas that I wish to highlight about how 
they are working with communities, especially in the demand 
reduction arena. First of all, there is direct community 
participation. These Guard members live in the community, they 
work in the community, and when they are present with the 
community coalition efforts, they give specific guidance and 
assistance in strategic planning. Guardspeople are outcome 
focused.
    If we are to address this issue in a systemic and realistic 
way, we are going to need outcome driven plans and strategies 
in local communities. Many community activists have been 
captured by process and activity oriented thinking that has 
little or no effect in reducing substance abuse. When the Guard 
has been involved in community planning, efforts to reduce 
substance abuse and violence, and are part of the sectors that 
are at that table, the result is a strategic plan that is 
focused, outcome based and measurable. And that is critical if 
we are to strategically place resources and use our resources 
effectively in local communities.
    Their participation has made a world of difference in local 
communities, not only in terms of the planning process but in 
implementing and helping to identify local community resources, 
financial and human, to address the challenges we face in the 
community. The demand of the Guard is found in 50 States and 
four territories, and they are critical to our eventual success 
in this issue.
    The second area where the Guard has been most helpful in 
the last several years is their distance learning capabilities. 
The Guard has provided through its satellite telecommunications 
network a valuable link for our communities to receive 
additional education and information around critical issues in 
the drug arena. Through its network, hundreds of communities in 
48 States have participated in satellite teleconferences. These 
programs have included an overview of Department of Defense 
efforts to address the drug abuse issue in local communities 
and a program on the CADCA-sponsored initiative, Say it 
Straight, Our Health, Our Youth and Marijuana. This program was 
picked up by 8 cable stations, 15 school districts, and 
broadcast in 48 States. Future programs include topics on 
methamphetamine, parenting, drug exposed infants, and community 
alternative programs to address adolescent drug abuse. This 
technology is critical to the ongoing education of our members 
and of communities in general.
    Increasingly, citizens are beginning to participate in that 
downlink/uplink capability that the Guard provides. This is 
very important for rural and frontier States, because that is 
often the only means for them to receive ongoing training and 
information, and that's where our members have expressly 
identified as a value added of our Guard partnership.
    The third is the liaison partnership. We have ongoing 
consistent communication with the Guard as to a way we can 
strategically plan together as well as the demand reduction 
liaisons that are being used in local communities and community 
coalitions. They work side by side, strategically planning 
around particular areas.
    The Guard was very visible in our National Leadership Forum 
recently where they provided again an uplink capacity for 
communities that could not attend the National Leadership 
Forum, which is a major opportunity for training.
    The fourth area is the National Interagency Counterdrug 
Institute, which Mr. Chairman, you have already emphasized in 
terms of its importance. Their capacity to provide ongoing 
training, and now under the leadership of Congressman Portman 
and Congressman Levin and others, the Congressional Coalition 
Initiative, where about 60 Members of Congress are currently 
working to organize community coalitions in their congressional 
districts.
    The institute is developing a curriculum to assist CADCA's 
congressional coalition effort where Members of Congress are 
launching community coalition efforts replicating the work, as 
I said, of Congressman Portman and others.
    This training link for communities, not only do communities 
participate in the actual training of law enforcement officers 
bringing the community voice to bear, but they also receive 
valuable training at the NICI institute in San Luis Obispo and 
the training facilities throughout the country.
    These are just four areas where we think this partnership 
is critical to our future. They will have not only an impact on 
what they do in the counterdrug but will have a severe impact 
on the demand reduction efforts and us thinking of a 
comprehensive conclusive strategy.
    In closing, I would say again our hope is we can provide 
persistent and consistent messages from preschool to high 
school for multiple sectors of the community. This cannot be 
left to the media, law enforcement, or the schools. It will 
take all of us. The Guard and its citizen soldiers are a 
critical part of that and our efforts to reducing drug abuse in 
our country. We stand ready to work with you, Mr. Chairman, in 
any way we can to rally in support of the Guard's efforts.
    Mr. Hastert. Thank you.
    [The prepared statement of Mr. Copple follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Brooks.
    Mr. Brooks. Mr. Chairman, members of the subcommittee, 
first of all, I applaud your leadership on this issue and I 
appreciate the opportunity to be here to speak before you today 
regarding the successes of the National Guard counterdrug 
programs, and the devastating effects that a proposed 42 
percent budget cut would have on our Nation's ability to fight 
the evils of drug abuse.
    I am here as a past president of the California Narcotics 
Officers' Association, the chair of its Drug Policy Committee, 
and as the chair of the National Narcotic Officers' Association 
Coalition. In California, we represent 7,000 members and the 
national coalition represents 33 State narcotic officers' 
associations, 1 with 60,000 police officers.
    Although I am not an expert in military matters, national 
security affairs or our country's budget, I am a veteran 
narcotic officer with 22 years of service in California, where 
I continue to work.
    California is a State that is plagued with drug problems. 
As part of the Southwest Border, we are particularly vulnerable 
to the vast quantities of heroin, marijuana, cocaine, heroin 
and precursor chemicals that flow through our borders from 
Mexico. We also produce much of the Nation's domestically grown 
high grade marijuana, and have been labelled by the DEA as a 
source country for methamphetamine. The California Attorney 
General's Bureau of Narcotic Enforcement this last year in 1996 
seized 835 operational methamphetamine labs. This is a dramatic 
increase from the 465 labs seized by the same agency the year 
before. If we don't win the war on drugs in California, then 
the Nation will not win the war on drugs.
    But California is not alone. No State, city or town in this 
Nation has not been affected by drug abuse. With the end of the 
cold war, the greatest threat to the security of our Nation is 
drug use. Use that carries with it the misery of addiction, 
ruined health, prolific violence, school dropout and failed 
careers. The answer to this Nation's drug problem is a 
comprehensive policy, including treatment, education and strong 
law enforcement.
    Americans, when polled, continue to describe drug use along 
with crime and gangs as their major concerns, and they should 
be. Quality of life including living in a safe, drug-free 
environment should be the right of every American.
    We live in a time when those of us in law enforcement face 
yearly budget cuts and diminishing resources. We are frequently 
asked to do more with less. One of the ways we have been able 
to continue our success in the daily fight against drugs is 
through a partnership formed with the National Guard 
counterdrug programs. This partnership has proven to be 
invaluable in aiding law enforcement's efforts to stop the flow 
of drugs into our country, to eradicate domestically grown 
marijuana, and to combat the growing epidemic of domestically 
produced methamphetamine.
    The review of the President's budget submission for fiscal 
year 1998 reflects a 4 percent cut in the National Guard 
counterdrug programs. This would cut much needed funds that are 
currently used by the National Guard to provide assistance to 
law enforcement in communities in their fight to reduce the 
supply of and demand for illegal drugs. The reduction of 
funding of this magnitude would decimate aviation, 
intelligence, tactical and engineering support as well as 
demand reduction training to State and local law enforcement.
    My own State, California, will be forced to reduce its 
National Guard counterdrug support by 35 percent. To put these 
budgets statistics in real terms, we must look at the efforts 
and successes of the Guard in California. They provide tactical 
aircraft missions, ground surveillance, demand reduction 
training, engineering efforts at the borders that help us in 
law enforcement, Federal, State, and local, in doing our job 
more efficiently. They truly are trained investigators who 
perform functions for which they were trained.
    The proposed budget cuts will be devastating to civilian 
law enforcement counterdrug efforts. The cuts in California 
will mean a 42 percent reduction in aerial reconnaissance and 
observation missions for State and local agencies. This will 
severely affect the support provided by the National Guard in 
the aerial detection and suppression of cannabis cultivation 
and methamphetamine manufacturing; the 60 percent reduction in 
ground reconnaissance and observation, this is a key component 
and complement of the aerial reconnaissance and observation 
mission which provides early detection of cannabis gardens and 
surveillance of methamphetamine labs; a 42 percent reduction in 
the California-Mexico border engineering support mission, this 
will severely hamper the efforts of the United States Border 
Patrol on Operation Gatekeeper and other successful 
interdiction operations; a 42 percent reduction in intelligence 
analysis, translation, and linguist support to Federal, State, 
and local law enforcement; a 60 percent reduction in 
transportation support, which is utilized to extensively 
conduct controlled drug deliveries for interdictions and to 
transport special equipment and law enforcement personnel to 
conduct complex narcotic investigations; and a 42 percent 
reduction in drug demand reduction activities. This is in 
direct contradiction to the President's Drug Control Policy 
Strategy, which established as its No. 1 goal to educate and 
enable America's youth to reject illegal drugs and alcohol.
    Additionally, these cuts, as, Mr. Chairman, you have 
alluded to, these cuts will severely affect and decrease the 
training provided by the National Interagency Counterdrug 
Institute, NICI. This program located at Camp San Luis Obispo 
is a civil-military institute that trains management level 
civilians and military personnel to work together in 
counterdrug operations and drug demand operations.
    To summarize, the proposed budget cuts will cost the 
California National Guard to lose up to 42 percent of its 
current counterdrug force. This will have a tremendous negative 
impact on military support to each of the California's 
designated HIDTAs. Law enforcement agency support will drop by 
50 percent. More importantly, more than 60 percent of law 
enforcement requests for support will have to be denied. This 
translates into fewer resources being devoted to educating 
youth about the dangers of drugs and a dramatic decrease in our 
vigilance of drug traffickers smuggling their deadly loads into 
the United States.
    We in law enforcement are fighting a difficult battle, one 
that will only get worse if support for the National Guard is 
reduced. I know there is only a finite amount of funding 
available and there are ongoing efforts to balance our Nation's 
budget. Spending must be prudent and justified. I believe, 
however, to fail to adequately fund the National Guard 
counterdrug programs at the current level will clearly send a 
message to law enforcement officers, community leaders, and 
most importantly, to our Nation's young people.
    I believe a request to cut funding and deemphasize the war 
on drugs is due in part to a feeling of frustration and a 
belief that our drug policies have been a failure. It's 
important to remember that from 1979 to 1992 through 
enforcement treatment and education, we reduced our Nation's 
drug abuse by 50 percent. If we had a 50 percent reduction in 
AIDS, cancer, heart disease or teenage pregnancy, we would all 
rally in the streets. These would be tremendous successes. In 
1992, we took our eye off the ball. Drug abuse, especially 
among our young people, has increased. Much of this, I believe, 
can be attributed to budget reductions and the deemphasis of 
enforcement and demand reduction training.
    It's time that we strengthen our resolve to look to our 
previous success as an example of how we can reduce drug abuse 
and the devastation to our great Nation. Based on my own 
involvement with the National Guard, I know that their programs 
are well designed, professionally administered, cost-effective, 
and user friendly. The National Guard has earned the admiration 
of law enforcement and deserves full funding for its programs.
    I would urge you to restore funding to the National Guard's 
State programs' counterdrug effort to the fiscal year 1997 
budget level and provide line item funding for the National 
Interagency Counterdrug Institute. I urge this on behalf of the 
7,000 CNOA members, the 50,000 National Narcotic Officers' 
Association Coalition members, along with all the men and women 
of law enforcement that risk their lives each day to stop the 
flow of drugs in our country, and I urge it in memory of the 66 
California police officers that have lost their lives since 
1965 enforcing our drug laws, and most importantly, I urge the 
funding on behalf of our country's young people, because they 
are truly the future of the Nation. Thank you.
    Mr. Hastert. Thank you.
    [The prepared statement of Mr. Brooks follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Bowers, talk me through a typical National 
Guard and local law enforcement action that would happen in 
Georgia.
    Mr. Bowers. You would have a multijurisdictional task 
force, let's say in Hinesville, GA, down on the coast. In that 
group, you would have the local sheriff, you would have the 
Georgia Bureau of Investigation, you might have DEA, other 
Federal agencies, you would have the local police from 
Hinesville, you would have the National Guard.
    Let's say they are busting crack houses. What could very 
well happen is they would have conducted intelligence before to 
say this most likely is a locale from which crack is being 
sold. Sometime during the day, the task force would move out to 
that crack task force, there would be a National Guard 
helicopter in the air to, actually as a communications 
platform. More than likely, with this Operation Silent Watch, 
some of the LURSU people, that's the MPs who are Sneaky Petes, 
they go out through the woods, get around the crack house to 
make sure that nothing goes wrong, make sure nobody gets 
killed, let the folks, the task force come and know exactly 
what is happening on the ground. That communication is relayed 
to a National Guard helicopter then back down to the law 
enforcement officials who go out to the crack house. Before 
anybody can get away, the bust is made.
    I have been on one of those. I have been on several of 
them, but I have been on one in a little town, Warrenton, GA, 
which is in east Georgia, in a trailer. In this tiny community 
of maybe 2,500 people, this trailer had several thousands, I 
think $17,000, almost a kilo of powdered cocaine, several 
wafers of crack, and that's the kind of thing that can be done 
in these joint operations. And that's sort of the way it works. 
It's all under civilian control. The National Guard's only role 
is to provide assistance, intelligence analysts, communications 
platform, the LURSU people, again, doing surveillance. That 
sort of thing. That's a typical operation.
    Mr. Hastert. General Bowers, you mentioned the fluctuating 
budgets the Guards received over the last few years. General 
McCaffrey recently came before us and discussed both his 
proposal for ONDCP reauthorization. One of the things he talked 
about was the proposal to change his budget to a 5-year budget 
for counterdrug efforts.
    Do you think that a 5-year budget would provide the Guard, 
other counterdrug agencies, with the stability necessary for 
effective counterdrug planning?
    Mr. Bowers. No question about it, sir, yes, absolutely, and 
that would be an enormous windfall and boon to the National 
Guard, and I say that from my experience working on the 
counterdrug board, being able to predict and then to be able to 
communicate a predictable level of support to the law 
enforcement in the field would be enormously valuable.
    Mr. Hastert. General Davis, one of the pleas that we have 
heard throughout the country from law enforcement agencies is 
they need and want more National Guard intel analysis and 
linguistic services that you would provide.
    Who can translate--you are doing the translation for 
languages that sometimes small communities can't do that. Do 
you have the funding necessary to meet the demand for these 
specially trained personnel?
    General Davis. The missions we are doing now, which we 
can't fulfill all the requests, Mr. Chairman, because we get 
more requests than we currently have linguists available to do 
the translating. Our funding is directly related to the number 
of people we can put out there to support law enforcement 
agencies, so a lot of this is done for DEA. If we had more 
money, we could send more people out. It's kind of directly 
proportional to the number of dollars.
    Ninety-two percent of the dollars we get in this program go 
for flight hours as well as for personnel, pay and allowances 
for the individual people we have on board. So if we had more 
dollars, we could do more of that.
    It's not a problem getting more linguists. We have got some 
programs and have expanded significantly in the past 4 or 5 
years, and could expand it some additionally. So if we had more 
money, we could obviously hire more people to do it.
    Mr. Hastert. So you are pretty much at capacity, you are 
actually over capacity--under capacity of the demand with the 
people? And where are these actions basically taking place?
    Mr. Davis. Well, a large percentage, significant percentage 
is taking place at Utah. We have linguists out there who do 
multilanguage translations, so we have a large number of folks 
who can do it.
    We have other linguists located at other parts of the 
country which we have not used as extensively because we have 
to put together equipment to provide that support.
    Mr. Hastert. Let me ask you one more question. We talk to 
Customs, all these people on the border, what is the advantage 
of using Guardsmen to assist the Border Patrol, as opposed to 
simply hiring more Customs agents and Immigration officers?
    General Davis. Part of that would be we have people already 
trained. We have them today; you don't have to train them. You 
only pay for them when you use them. We come with a large 
amount of high-tech equipment.
    We talked about the night sensors that we used very 
successfully in prosecuting the war in the Gulf. We have that 
on board for virtually no cost, just the cost of operations. 
Those are available----
    Mr. Hastert. Those are like FLIRs, and those types of 
things?
    General Davis. Yes, sir. Those are available and our people 
are trained to use them. Long term, I think we should look at 
that as an option.
    One of the advantages also with the Guard is you have 
people stationed in, permanent people stationed there. You 
can't move them around quite as easily as with the Guard. We 
just put them on the ground in whatever location and move them, 
but you could certainly do a significant amount of that if you 
had fully trained Customs available. You could substitute 
those.
    Mr. Hastert. Thank you. The gentleman from Wisconsin, Mr. 
Barrett.
    Mr. Barrett. Thank you. I want to thank all of you for your 
fine testimony this afternoon.
    I represent a district where drug use is a significant 
problem, so obviously I am interested in any effective efforts 
we can make to combat drug use, either from the demand side or 
the supply side. I also come from a community in a State where 
there is very little defense spending, so to the extent that I 
can get defense spending in my State, the National Guard is one 
of the areas, which is, frankly, an area where I see the 
potential for the growth.
    What concerns me, and we have talked a lot about the budget 
here, in some way it reminds me of the town hall meeting where 
the politician fields many, many questions and they are 
conflicting questions about priorities and where money should 
be spent, and the politician listens to all the questions and 
doesn't give an answer to each question, but after all the 
questions were asked he said, I wanted to agree with every one 
of you, so I am going to ask that we meet privately, so I can 
agree with every one of you.
    The reason it reminds me of that is we are dealing with a 
situation now where basically there has been an agreement 
between the President and the leadership in Congress, and I 
don't, frankly, know what is going to happen with that 
agreement. I assume that the budget blueprint will be approved. 
But that is going to set the parameters for the defense 
spending, and I think each of us understands that. And what 
concerns me today with the criticism of the President's figures 
is that, frankly, that is water over the dam at this time. Now 
the ball is in Congress's court.
    And I don't think that it is an accurate reflection of the 
process to say, well, it is the President's terrible numbers. 
It reminds me a little bit of the Flip Wilson character on 
Rowen and Martin where he says ``The devil made me do it, the 
devil made me do it,'' because now we are beyond or we will 
soon be beyond the White House. And the priorities will be set 
in the committees here on Capitol Hill, and you will be 
competing with other parts of the defense establishment who are 
looking for dollars.
    So I don't want anybody to leave this room today under 
the--what I believe is a mistaken belief that if you don't get 
the funding that you probably deserve, that it was President 
Clinton's fault. Because each person in this room and actually 
the Republican leadership has a far greater role at this point 
in shaping how much money will be spent on the National Guard.
    I think it is accurate to say, and, again, I think most of 
you will agree with me, whether we want it to be or not, 
National Guard spending is not the tail that wags the dog. I 
can't see President Clinton saying, ``I am going to veto this 
appropriations bill because there's too much spending for the 
National Guard.''
    So I think you are doing a service today by presenting the 
case for the National Guard. I think that that is a very 
important function. And I am glad that we are having the 
hearing for that reason.
    But my concern is that there are hearings all around 
Capitol Hill that are going on where the majority is 
criticizing the President for his submission, knowing full well 
that there has never been a submission by the Republicans for a 
budget. And so, to the extent that there are decisions, it will 
be difficult decisions that will have to be made; that they 
will blame the President when we are all grown ups, and at this 
point it is Congress and the President working together.
    So I don't want this to be a kick fest against the 
President. And to the extent that there is a legitimate 
disagreement as to what the level of funding should be, from a 
submission from Secretary Cohen or anyone else in the 
administration, I think that is fair game for debate. But I 
think that we should definitely keep in mind that what you are 
up against, basically, is other demands in defense spending.
    So I am going to ask each of you where you think that we 
should be curtailing defense spending in order to fully fund 
the National Guard. Maybe, Mr. Owen, if you have any thoughts.
    Mr. Owen. Thank you, Congressman. I specifically didn't run 
for Congress so I wouldn't have to answer that question. That's 
not true. I couldn't tell you. I don't know the defense budget 
adequately enough to try to guess whether or not you should 
make the shifts. But what I do know is, in the battle that 
we've been fighting for years, the biggest problem that we've 
had is consistent, ongoing funding in----
    Mr. Barrett. And I agree.
    Mr. Owen [continuing]. In this area.
    Mr. Barrett. I agree. I think that Mr. Bowers' comments 
were very well taken. The worst thing we can do is have an up 
and down budgeting process. I think that is unfair to anyone. 
So I agree. I don't mean this to be a loaded question, but I 
just--if anyone has any ideas where we should be moving from.
    Mr. Bowers. I think it's easy, Your Honor.
    Mr. Barrett. I am not Your Honor.
    Mr. Bowers. I've forgot I wasn't in court. I think that's 
an easy question to answer. You go to the other DOD agencies--
and I can say this, I am a civilian here--you go to the other 
DOD agencies and take counterdrug money from them and put it 
here, for a very simple reason. This is where you get the best 
bang for the buck. I mean, that's a given in terms of a 
question. Take it from the Navy, take it from the Army, take it 
from the active Air Force, because this is where you get the 
bang for the buck, right here.
    Mr. Barrett. OK. I appreciate that.
    Mr. Copple. And I, as another citizen, I would agree with 
General Bowers 100 percent. I think that the Guard's capacity 
to coordinate and strategically plan, and the continuum from 
law enforcement to prevention, is critical for communities.
    I mean, our organization has continually been concerned 
about the split. This would be an issue with some of the 
members of the panel, I'm sure, between the split and the drug 
budget as a whole, between supply side and demand side.
    I think there's a critical issue in this country that we 
have to face, that demand continues to fuel supply. And we're 
very concerned about how resources get to the communities.
    What we have in the National Guard out of the Department of 
Defense--and if you would have asked me this 20 years ago, I 
would have thought no way would this have happened--but out of 
the Department of Defense we are getting a major commitment to 
do a continuum, a comprehensive approach, not just supply side, 
not just prevention side, but a continuum of service that I 
think is critical to the future.
    I think your comments are appropriate that what we're 
dealing with, either in a national drug control strategy or as 
a budget, is that this is a baseline from which we're beginning 
this discussion. And from a community perspective, we were very 
concerned from both the Democratic and the Republican side and 
from a congressional side and from a White House side as to 
what we were seeing in communities.
    I'm here today because the Guard is one resource that 
really gets to local communities. And we're very concerned 
about it being cut. I'm concerned about any program that takes 
away from community.
    Mr. Barrett. OK. Thank you, Mr. Chairman.
    Mr. Hastert. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. I have been sitting here very patiently, but I 
want to make a couple of comments. One is that, first, Mr. 
Brooks, I had the privilege of being out along the California 
border over spring break, took an unofficial tour with a member 
from Duncan Hunter's staff--both in the middle of the night and 
the next day around--along the Tijuana border and along Campo.
    Without the roads and changes that have been done there, I 
don't know how you can begin to watch the border. It is up and 
down, it is back in. And I think your work is to be commended 
in the 442 miles and 550 miles along the border, because it is 
essential to try and enforce any national policy, and we all 
have a lot of frustrations with that.
    I can think of a couple places we could cut. Possibly we 
could reduce funding for crucifixes in urine and calling it 
art. Perhaps we could fund a few less abortions in China. In 
other words, it is an artificial construct to say it has to 
come out of the defense of our country.
    We have to look at the full budget, and the budget, in 
fact, does show priorities. If the drug war is our No. 1 
priority, and people know back home that the crime on the 
streets and the gangs and the drugs are totally interrelated, 
along with alcohol, then we have to focus on that area.
    And when there are proposed cuts to start, I understand it 
is a negotiating process, but it does say whose priorities are 
what. And this committee has focused on this for now 2 years, 
to try and keep this priority up there.
    And I know the election is over. But as soon as the 
election is over, we can't say the drug war over, and that is 
the danger we have right now. I personally am so upset about 
Governor Weld being proposed as Ambassador to Mexico, when he 
has insulted our drug czar by saying that he shouldn't enforce 
the national laws and should back off on just so-called 
medicinal use of marijuana. You can get the THC component in 
other drugs. It is back door legalization.
    I am now also, to be bipartisan with this, upset at 
Congress. Today or tomorrow we are going to vote on an 
international bill, that an amendment was put in in committee 
that would change it so Congress doesn't have the right to work 
on the decertification question, to put that in.
    And I wanted to ask Mr. Brooks: Do you think this is going 
to help in California, if we back off from the pressure on 
Mexico and say that we are no longer going to raise the 
decertification issue with them? Is that going to help the 
narcotics officers in California and your relationships with 
Tijuana border patrol and so on?
    Mr. Brooks. No, I don't think it will. I just recently 
testified in the Senate on the decertification issue, and I 
think it's very important that we keep the pressure on Mexico. 
I think Administrator Tom Constantine from DEA was exactly 
correct, from my experience, being from a border State, when he 
says right now in Mexico there's not one single law enforcement 
component that we can trust.
    We are being inundated with drugs from Mexico, and with 
methamphetamine labs. When I spoke about these 835 
methamphetamine labs, the vast majority of those are run by 
cartels in Mexico operating them in California. They're run by 
the Carillo Fuentes group and the Arellano Felix group with the 
money going back to Mexico.
    When we hit those labs, we don't get their money. We don't 
find their palatial estates here in California. We find that 
that money is channeled directly to Mexico. And so it's 
absolutely imperative, in my opinion, that we keep the pressure 
up on Mexico and other source and transshipment countries in an 
effort to get some cooperation.
    Mr. Souder. The scary thing is that, amazing thing with 
these numbers, they go up in election years and down in 
nonelection years. Drugs can't be an election issue. We have to 
keep the pressure on all across the board and on many fronts.
    I also had--this is more of a technical question to 
Attorney General Bowers. You mentioned about fencing the money.
    Mr. Bowers. Yes.
    Mr. Souder. Could you explain how you would do that and 
what exactly you mean? I mean, I know what you mean in the 
sense it goes for Guard, for just drug operations. And you made 
an interesting side comment, and I wondered how it related. You 
said eradication went down because of the Olympics in Georgia. 
Did that mean that drug money got diverted and wasn't fenced, 
or what did you mean?
    Mr. Bowers. No. It means that assets that would have been 
used for drugs were used for other things associated with the 
Olympics. And it was a dramatic drop in the number of marijuana 
plants destroyed from 1995, 1996: 30,000 in 1995, about 6,000 
in 1996. But it was not diversion of drug money. That's a 
criminal offense, and I can assure you we weren't doing that.
    Mr. Souder. So what--how do you mean fencing, in the sense 
of----
    Mr. Bowers. Fencing, something like the Senate bill, I 
think it's S. 862, which says that of this appropriation, so 
much will be for the National Guard counterdrug program. And, 
quite frankly, the purpose behind that is to make sure that 
that is not diverted into other DOD counterdrug programs, and 
is used right here where you get the best bang for the buck.
    And I would challenge anybody to look at it in terms of a 
dollar-for-dollar effectiveness. Nothing comes close to the 
Guard in terms of where you get the bang for the buck. And the 
other thing that's critical is, this is money that is being 
used to support your home town law enforcement agency, not some 
Federal bureaucracy up here in Washington, although I'm very 
fond of them, and they do wonderful jobs. I would much rather 
that dollar be spent for the sheriff of Clinch County, GA, or 
whatever county you're from.
    Mr. Souder. Lieutenant Governor, I had a question for you, 
too. We focused mostly on the Southern borders. Could you 
explain a little bit the challenges you face? Is it more coming 
in through water into Washington State, across the border from 
Canada? Give me a little idea. Or up from California?
    Mr. Owen. Washington State has a number of challenges in 
that area, because we are a border State both with other 
States--with Canada, I mean, and of course the ocean with all 
the ports.
    Our ports, I think that we're something like sixth in the 
Nation for container port activity in Washington State. We've 
got one of the busiest airports, activity coming from all of 
the world into Seattle, Tacoma International Airport. We have a 
tremendous amount of international travel, from people coming 
up from Mexico to work, et cetera. We have a tremendous number 
of challenges.
    But at the same time, Washington State's youth lead the 
Nation in increasing marijuana use and are still ahead of the 
rest of the Nation. And I think there are significant pressures 
there that contribute to that.
    A child that uses marijuana is 85 percent more likely than 
another child that doesn't to use another drug. So you have 
that compounding problem when you let that get out of hand.
    Washington State has a huge music industry that is very, 
very popular amongst the kids who openly espouse the 
legalization and use. We are a targeted State for legalization. 
We are under medicinal use attack right now of any schedule one 
drug, not just marijuana.
    So we have pressures that are not just international 
pressures. We have pressures from within, as well, to try to 
deal with the problem.
    And I want to make it crystal clear that I don't believe 
that this is a President Clinton or any other President issue, 
a problem here. If you take a look at the increase in use by 
the citizens of America, it started back when the attention 
went down and the investment went down in 1989 to 518 network 
news stories about substance abuse. Four years later there were 
only 78. Public service announcements went down by 20 percent. 
Today they think they're down by 30 percent, and those that 
have been placed are placed in nonpeak hours. At the same time, 
the attack or the open assault for legalization just went 
crazy.
    Those are contributing factors, as well as the public and 
private investment into the issue that has driven up the use. 
Washington State just has all those factors funneled at it, as 
well as the ports and the borders to deal with.
    Mr. Souder. I thank you all for your leadership.
    Mr. Hastert. The gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much. I want to thank you all 
for being here. As I was just sitting here, I was just 
listening and thinking that just this morning, on my way here 
from Baltimore, which has a major drug problem, I saw about 
five or six drug deals just in about six or seven blocks. That 
is not an unusual picture for me, living in the area that I 
live in near downtown Baltimore, so I see it up front and very, 
very personal.
    And, you know, I want to commend the National Guard in 
Maryland. They have done a great job. They have been very 
helpful to us, to our law enforcement agencies. As a matter of 
fact, working with the National Guard, our U.S. Customs and 
U.S. Drug Enforcement Administration agents seized about 2,400 
pounds of cocaine worth $25 million back in February. So that 
is very, very significant, and that is real good.
    But it just seems like there is so much flowing into our 
country that even a big hit like that, $25 million worth, you 
would think that that would have a tremendous impact, but I get 
the impression that that is part of the cost of dealing in 
drugs. I guess they just assume there are going to be some 
situations where they are going to lose out.
    But, Mr. Attorney General, I just want to ask you 
something. I listened to the example that you gave just now, 
talking about the small town. What are you guys doing with 
regard--I mean, how is it the National Guard helps you in the 
urban areas?
    Mr. Bowers. Same kinds of ways.
    Mr. Cummings. Same types of ways?
    Mr. Bowers. Exactly the same kinds of ways: communication 
support, aviation support, surveillance, reconnaissance, all of 
those kinds of things, not dissimilar from what's done out in 
the rural areas.
    Mr. Cummings. How do you all make that determination? I 
heard you use the words ``task force.'' How to you make the 
determination as to which types of--I practiced criminal law 
for 20 years, so I kind of, you know, I mean, I have a lot of 
mixed feelings about drug--our so-called war on drugs. But I am 
just wondering, when you make a determination as to how you are 
going to use the National Guard, how is that done? Is your 
office involved?
    Mr. Bowers. No. No. It would be the local law enforcement 
officials.
    Mr. Cummings. OK.
    Mr. Bowers. We're prosecutors.
    Mr. Cummings. Right.
    Mr. Bowers. We're not--I don't--I have one investigator. So 
I'm not really in the law enforcement business. But it could be 
the Georgia Bureau of Investigation, which is a State-wide 
entity. It depends on which part of the State, what geographic 
multijurisdictional task force. Or it might be just working 
directly for a local sheriff or a local police chief.
    Mr. Cummings. When you say that--I think several of you 
have said that you get your most bang for your buck from this. 
Can you elaborate just a little bit for me?
    Mr. Bowers. Yes. If you look at seizures, if you look at 
confiscations, dollars, weapons, arrests, drugs, and you 
compare the various DOD agencies, there is no question where 
you get the most for the dollar spent. And that is with the 
National Guard, and that should not be surprising.
    I would attribute it to two things. One, posse comitatus 
does not apply to the National Guard. As long as the National 
Guard is in State service, which it is in in performing these 
duties, posse comitatus doesn't apply. So it can have a much 
bigger role in law enforcement, albeit not performing arrest 
functions and functions where the Guards might have to be 
witnesses and such, but it can still help out a lot more.
    And the second reason is, rather than working for Federal 
agencies, it's working for the local police chief, the local 
sheriff, the local multijurisdictional task force, where really 
street crime is dealt with in this country in the main.
    So if you compare all those objective statistics to see 
where are you getting value, I will guarantee you, the Guard 
will come out way ahead of all the Department of Defense 
agencies. And I'm not being disparaging of them. They're all 
essential, but this is where you get the dollar, right here.
    General Davis. If I might add something to that, please, 
just a couple of statistics we throw out: 92 percent of the 
marijuana drug seizures are seizures as a result of the Guard 
being involved in support of law enforcement agencies; 90 
percent of heroin seizures; 34 percent of cocaine seizures.
    I was a commanding general of the District of Columbia for 
about 4 years, the National Guard in the District of Columbia 
about 4 years. We work with these multiagency task forces 
routinely. I was out, as General Bowers, Attorney General 
Bowers was out on a number of instances with these, just to see 
what our young people are doing in terms of the activity.
    And the activities will relate to those which relate to 
active drug operations. They'll relate to, as we had in the 
District, we closed about four or five crack houses every year. 
We supported a number of requests from the attorney general who 
was the prosecute--she would prosecute, as Attorney General 
Bowers is in Georgia.
    Here in Washington, whenever they were prepping for a case, 
they would always have us come in and help do that as they 
developed the evidentiary portions of the--the visual display, 
primarily, so we can put in a drug deal on that corner. It's 
very difficult for a lot of people to visualize it. But, as I 
said a little earlier, if you come down T Street from one 
direction, I can put you on the corner. From the other 
direction, I can put you on the corner of 14th and T. I can 
come down 14th Street. And all of a sudden, your head and your 
mind, as the jury, are on 14th and T on the northwest corner. 
And when that drug bust takes place, you can relate to it, 
identify with it, and it makes it happen.
    Mr. Cummings. You all may have talked about training a 
little bit earlier, but I am just curious, what kind of 
training got into the National Guard with regard to these 
issues?
    General Davis. A lot of that would be training we already 
have.
    Mr. Cummings. OK.
    General Davis. I would say probably 85, 90-plus percent of 
it is people who are trained as military policemen or doing 
military police types of things, be that evaluating data in 
intelligence analysis, computer inputting. We do have some 
specialized training. We haven't talked, but we deal with 
support to Customs, mail inspection, those kinds of things, bag 
inspection, port inspection, as we do out in the State of 
Washington. And when we do that, people are using--95 percent 
of those people are using skills that they already possess.
    We do do some specialized training in mail handling, 
operation of the special x-ray type machines and that kind of 
thing. But most of the folks who are out there doing--and 
that's the beauty of using the Guard, we don't have to have a 
lot of additional training. We come as a trained resource. I 
talked a little bit ago, we talked about Customs agents. We 
come trained. And we have a large amount of high-tech 
equipment: night vision goggles, infrared sensing, those kinds 
of high-tech equipment that's part of the military operation, 
and we just convert that use over for purposes of the drug 
operation to, on a cost basis, to utilizing it with our already 
trained folks and equipment we have available.
    Mr. Cummings. Thank you very much.
    Mr. Hastert. The gentleman from Ohio, Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    As I listened to all of your testimony, I want to focus on 
the asset forfeiture section. I used to be an old broken-down 
county prosecutor before I came to Congress, and we are very 
interested in asset forfeiture. And, more particularly, after 
we seized the assets, we were very interested in what we could 
do with the assets we seized.
    As you testified, I wrote down from the Lieutenant Governor 
$308 million in assets, $337 million in Georgia from the 
attorney general, and General Davis, I think you said $336 
million in cash.
    Do each of you have in place, when the National Guard is 
involved in a task force or joint operation, does the National 
Guard get to share in the proceeds of the seized cash or 
assets? Is there an equitable sharing arrangement in place in 
Georgia and in Washington?
    Mr. Owen. I'm not aware in Washington State. General Barlow 
has consistently said that it's his mission to support the 
efforts of the local folks. It's not his place to take the--for 
the National Guard to take the lead, but to be there to provide 
the equipment, the talent, the support services and that. So I 
don't believe that they are taking a share of that, that I 
know.
    Mr. LaTourette. Attorney General Bowers?
    Mr. Bowers. In Georgia, the answer to your question is yes. 
And as best I understand, that is going to vary State-by-State.
    Mr. LaTourette. Sure. OK.
    Mr. Bowers. But Georgia, yes.
    Mr. LaTourette. We used to have--what we drew up is a 
contract based upon the level of participation of each law 
enforcement agency. And, General Davis, do you have a response 
to that? Is that a widely practiced practice?
    General Davis. It's--I don't know. I would say, as far as 
my last recollection, it was around a third of the States who 
were having some level of participation in asset seizure. Some 
of them it's difficult to work.
    In the District of Columbia we were involved in asset 
seizure. We never could do it because of the nature of the way 
we do funding for the District of Columbia. But many States 
have it, and they do participate in it.
    More States are seeking it. In many instances they require 
special legislation within a State in order for them to 
participate in asset seizure. It's an unusual process in the 
law, which is not typical and probably hadn't been thought of 
15, 20 years ago.
    Mr. Bowers. Also, at one time, a year or so ago, there were 
a couple of Federal agencies that had balked at asset 
forfeiture sharing with the National Guard.
    Mr. LaTourette. OK.
    Mr. Bowers. I think that's been cleared up now, and we are 
sharing, but that was the case a couple years ago.
    General Davis. In other States, as opposed to asset 
seizure--and I was just handed a note here by our real true 
experts behind me that said 10 States have programs where they 
do share in asset seizures.
    But a number of the States, what happens is, if they have a 
special requirement for equipment--as an example, in the 
District of Columbia, we inherited through the Metropolitan 
Police two vans which we could use. And they will customize 
vans that they use for undercover work and all, and we could 
use these vans. Actually, one of the vans we used to transport 
our people back and forth to Dulles Airport, where we did mail 
inspection and evaluation for our counterdrugs.
    Mr. LaTourette. Sure. The reason I asked the question is, 
one, regardless of the funding level that eventually comes out, 
whether it is the $179 million that was in this fiscal year, or 
whether or not the President's proposal of $103 million, or 
whether there is some other figure that comes out of the 
appropriations process, those States that don't have asset 
sharing and equitable distribution, I think you can make up 
some of the shortfall that way.
    But more seriously, in Georgia, Attorney General Bowers, I 
wrote down when you were testifying that if the reduction that 
was proposed in the budget were to come to pass in the final 
budget, that there would be a 30 percent reduction in seizures. 
Now, I would take that to mean that you would not only take the 
whack and whatever the reduction in the State's planned budget 
was, but you would likewise see, if you received $1 million, 
for instance, in asset forfeiture, you would see that reduced 
by a third as well. So that the problem is not just a problem 
of less Federal participation, it is a problem that is going to 
compound itself in the Guard's ability in those States that 
share.
    Mr. Bowers. That is correct.
    Mr. Owen. Congressman, can I clarify?
    Mr. LaTourette. Certainly.
    Mr. Owen. $308 million was narcotics and assets. We can't 
sell the narcotics. And I just wanted to make clear that----
    Mr. LaTourette. The only one I wrote down cash for was 
Major General Davis. Everyone else, I just wrote down those 
were assets that were seized, and I assumed that you included 
drugs in those assets as well.
    But out of that $300 million, everyone, at least every drug 
enterprise I have been involved in, you not only find your 
kilos or rocks of crack cocaine, but you also find that they 
have a little cash laying around that is labeled in most States 
as contraband.
    Mr. Owen. Cars, boats.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Bowers. May I clarify one thing?
    Mr. LaTourette. Oh, sure, you can.
    Mr. Bowers. We may have miscommunicated, and I probably 
have misspoken, but the $336 million that you mentioned seized, 
that is a national figure. That's not a Georgia figure. That's 
for the whole National Guard.
    Mr. LaTourette. Well, I am from Ohio, and I know the folks 
down in Georgia are a lot wealthier than we are. I thought that 
was a lot of money but I wasn't going to quibble with it. Thank 
you very much, Mr. Chairman.
    Mr. Hastert. I thank the gentleman. The gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. First, I want to take 
just a moment to thank you all for the tremendous contribution 
you make, not only to our national security but also to this 
tremendous domestic threat that we face and where the drug war 
has inundated every community and affected so many people 
across our land.
    I just returned about a week ago from south Florida, where 
I met with some of our DEA officials and Customs and other law 
enforcement folks, and they also were praising the work that 
you do. I believe you work with some of the HIDTAs, the high 
intensity drug traffic areas.
    One of the things that was raised is--well, first of all, 
they compliment you again on your fine efforts, the 
contributions you make. But they were concerned that the tenure 
and rotation of these folks, just by the time they--and some of 
the work that they are doing is a bit technical. And you 
provide great resources and personnel backup assistance. But by 
the time they get someone acquainted with the mission and the 
task that they are--their history, is there anything that we 
can do to address that? Because we want your presence. We want 
your assistance, but we want it to be helpful, useful to these 
folks in this effort. Anyone can respond. General Davis?
    General Davis. I will take a cut at that, sir. One of the 
problems that we have is that these programs are funded from 
year to year. And I think Attorney General Bowers talked about 
some of the fluctuation, as did some of the other panelists.
    So the people we hire for those programs, we hire basically 
on kind of almost a 1-year contract basis. And at the end of 
that year, then we will see what the funding is to see whether 
they will continue the following year. So it's almost an at-
will type hiring arrangement. And so that's one of the problems 
of getting the continuity of personnel that you discussed.
    We talked a little bit earlier about, I think before you 
joined us, about some of the folks who don't require training 
because they work pretty much in the same areas that they have 
military skills in. But we do have some people who are trained.
    And some of those folks who are trained, it's very 
disquieting to them, as well as the agencies we support, when 
they leave the program. But if you have basically what amounts 
to a 1-year contract with no guarantee of employment the 
following year, and you have an opportunity to go to work--let 
me give you an example.
    We have lost people in the District of Columbia, I know, to 
DEA, to ATF and some of the agencies we worked for. They've 
left us as full-time military members working in a counterdrug 
program, to go work as civilians and then participate on drill 
weekends as our--what we call our mobilization day soldiers. So 
there's that kind of problem that we have also with continuity.
    It's in part related, I think, to the fact we don't have 
long-term funding, that it is year-to-year. And sometimes 
during the course of the year we've had money withdrawn from 
the counterdrug program in the Department of Defense, from the 
National Guard, so we end up having to make up that deficit by 
releasing people. So there's some insecurity involved in it. 
And the long-term continuity is definitely impacted by year-to-
year funding.
    Mr. Mica. Is there any way we can assure some longer-term 
personnel commitment, or is that not possible under the 
structure?
    General Davis. We get money to hire people for this 
program, sir. And I would say probably 60 percent of them work 
for us through the entire year, maybe a higher percent of that 
now that we've been in it, will work for us for the entire 
year.
    The remainder of the people will work for us for 2 or 3 
months, and then they will go and get a full-time job doing 
something else. They may be between school terms. We have a lot 
of students who we utilize in these kinds of programs, and 
they'll be there during the Christmas break and during the 
spring break and that kind of thing, in the summer, but then 
they go back to school full time. If the program allows them to 
work evenings, sometimes they'll participate at that level.
    So these are not our full-time cadre people who are 
designed and hired by us to produce readiness in the National 
Guard. These are people over and above that, and they're paid 
for out of these counterdrug funds that we get.
    Mr. Mica. Are there any other instances where we could use 
your personnel if you had, you know, the funding, support? And 
I notice, of course the administration's proposal to 
dramatically cut, I guess it is 42 percent of your support plan 
funding. But if you had additional funding, could you tell me, 
are there other areas where you could help? I, too, am 
concerned about the District of Columbia, other high intensity 
drug traffic areas. Are you doing all you can do with the 
resources, the resources and personnel that you have?
    General Davis. If we base all we can do, sir, on the fact 
that we have more requests than we can fulfill, no. There's a 
lot more that could be done if we had the funding. We fulfill 
now something in the area of 50 to 60 percent of the requests 
at the current funding. More money, we could fund a greater 
percentage of the requests.
    The requests for National Guard support have to fall within 
certain guidelines. I might say that. So this is not just 
requests for anything we do. All of this has to be approved 
through State plans that the Governors submit to the National 
Guard Bureau and they're approved at Department of Defense. So 
we've already preapproved these given sets of plans and actions 
that we can take. Once we tell our law enforcement agencies 
about it, they make their request. Some of those we can't 
fulfill because we just don't have the manpower.
    Mr. Mica. So you have requests now beyond what you have 
financial capability?
    General Davis. Yes, sir, we do. And I might let Attorney 
General Bowers--because the requests come through, the State 
requests would come through his agency.
    Mr. Mica. If you like to respond, I would appreciate that.
    Mr. Bowers. Yes, sir. One thing that immediately comes to 
mind, that would be a boon to law enforcement officials in this 
country, would put us back in the transporting of prisoners 
business.
    If you have a major drug bust in this city, right here, and 
there are a lot of illegal immigrants involved, most likely the 
U.S. attorney is only going to prosecute ring leaders. So 
you're going to be left with a group of people who are not 
going to be prosecuted, who are illegal immigrants in this 
country, and for whom the INS does not have money to send them 
to a port of debarkation. So what's going to happen to them? 
They're going to be turned loose, right back out on the 
streets, I'll guarantee you.
    At one time we were authorized to take prisoners in our 
transport aircraft and take them to ports of debarkation. If 
you asked the Federal law enforcement officials, like the 
people at North Star and projects like that, I think they'd 
tell you, if you all were willing to give us the money, that 
would be one of the No. 1 priorities: get these illegal 
immigrants, most likely criminals, back out of the country.
    Mr. Mica. Thank you.
    Mr. Hastert. I thank the gentleman from Florida.
    Mr. Brooks, you have talked about watching the crack 
epidemic in the 1980's, and going through the boom in 
production of methamphetamine. Can you kind of tell us, what 
are the similarities, and where the stuff comes from, and how 
does it affect your ability in law enforcement?
    Mr. Brooks. Well, they're both central nervous system 
stimulants. They affect the body very similarly, except that 
methamphetamine is a much longer lasting, much more easily 
obtained drug. And it's a drug that can be made in small and 
large production labs throughout this country with readily 
available precursor chemicals.
    This has caused such a tremendous problem throughout the 
West Coast and now throughout the Nation. You know, I was 
surprised, as I travel across the country and talk on this 
issue, that they told me--that law enforcement executives in 
Des Moines, IA tell me that the single biggest problem they 
face is California-manufactured methamphetamine; that they make 
more arrests for methamphetamine-related crime in Des Moines 
than any other crime, DUIs, family violence, public 
intoxication.
    What we find with methamphetamine use is it is so consuming 
that people are unable to parent. They cannot provide for their 
children. They become very paranoid and violent. There's 
tremendous family violence and abuse that's associated with it. 
And a study in the Antelope Valley, which is north Los Angeles 
County, 86 percent of all child abuse cases were related to 
persons that were under the influence of meth and couldn't take 
care of their kids.
    Mr. Hastert. Did you say 86 percent?
    Mr. Brooks. Yes, sir. We have a case in Riverside County, 
CA, southern California, where a methamphetamine laboratory 
blew up in a trailer. And the parents allowed their children to 
perish in the fire because they were busy moving the precursor 
chemicals and trying to save those chemicals from the fire.
    You've probably heard about the case in New Mexico, an 
Arizona man that cut his own son's head off and threw it out 
the window while his 13-year-old son watched in horror, because 
this person had been on a 3- or 4-day methamphetamine run, had 
not slept, was hearing voices, was delusional, and thought that 
God had told him to hack this child's head off.
    And I can go on. I still run a narcotic task force where I 
am out on the street every single day, and I can go on with 
stories like this forever. The violence and the destruction of 
family is so tremendous with methamphetamine, it's the single 
biggest problem we face in narcotic enforcement.
    And California's meth problem is the Nation's meth problem. 
When I go to Florida, I was in Florida, and they said, ``Hey, 
you know, we always think of ourselves as the cocaine capital 
in south Florida.'' The biggest problem they face in south 
Florida today is California methamphetamine being shipped 
across the country.
    Mr. Hastert. Mr. Copple, you talked persuasively about the 
National Guard's role in prevention. Can you tell me precisely 
what does the Guard do to help your communities, and how many 
communities do you represent?
    Mr. Copple. We represent 4,300 communities, but I would 
like to finish General Bowers' story, if I could. I will move 
it to Kansas where I lead a local coalition.
    The same National Guard that would be working on 
counterdrug strategies are the same Guard who were in 
neighborhoods that had a number of crack houses, and a major 
task force worked to close down those crack houses. In some 
cases there were crack houses where gang members were being 
jumped in.
    And for a year I rode with our gang unit 4 nights a week, 
doing street interventions and volunteer Guard on weekends. 
When a crack house was torn down, the Guard worked with us to 
put in what we call progressive playgrounds. And this lot, we 
put swing sets; three lots down, we put basketball courts; five 
lots down, we put jungle gym activities. We turned lots that 
were basically vacated by crack houses and gang houses in 
neighborhoods where the houses were boarded up, and the Guard 
worked with us in that community to build those.
    Those were the kinds of resiliency and prevention 
activities which were important to our communities. And it's 
that kind of thing that is going on in numerous communities, 
again, where the Guard is working to get coalitions to think 
more strategically and comprehensively in the way they plan, 
and in the way they work together, and to reach out to do 
mentoring programs where Guards--members are actively involved 
as mentors, to work with them to do, in collaboration with law 
enforcement, prevention education programs and working directly 
in the schools.
    So those are just a couple of things that work. So they 
run, again, the continuum of activity from law enforcement to 
very real prevention activities, making very substantive 
community change.
    Mr. Hastert. I thank the gentleman. And I recognize the 
gentleman from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman.
    General Davis, what percentage of the Guard's personnel 
man-hours and budget is devoted to the counterdrug effort?
    General Davis. We're talking in terms of total budget of 
about $9 million, Army Guard and Air Guard. And it's $180 
million. I guess that's something, 1 percent, somewhere along 
in there.
    Mr. Barrett. OK. I was trying to get a feel of what 
percentage of it. And when you--Mr. Copple was talking about 
the interaction with community. When the Guard goes into the 
community, maybe either one of you can answer this, who is the 
spark that brings them into the community? Is it something that 
the Guard does or is it something that the community asks the 
Guard to do?
    General Davis. It's actually at the request. As I talked a 
little earlier, sir, the Guard is in support of activities. As 
an example, a coalition would request that we come in. 
Sometimes we go in and do planning and help with some of the 
strategic planning. That's part of what the Guard brings as how 
we organize and equip ourselves and all. So we will take that 
to a community.
    But it's a request, usually will come from a law 
enforcement agency more typically. It will come in and it will 
get filtered through the process of a letter comes in and we 
would like to have you support us on this.
    In DC, we have a process, and most States have something 
similar, where we look at the request to see whether it falls 
within the Federal guidelines that have been approved by DOD 
for spending money or funding for that type of activity. On the 
basis of that, we will decide whether we can do it or not and 
then contact the agency and then move out and do it.
    Other times it will come, as I said, through one of the 
coalitions. If they're in the counterdrug, we will request from 
them maybe, what's your charter? You're a nonprofit 
organization. We will ask those kinds of questions before we 
send our people out, to make sure we're not subsidizing their 
payroll, we're out there with nonprofit organizations, people 
who really need. If they're a member of CADCA-MET, we can get 
with Jim and his folks right down here in Old Towne and talk to 
them. We can--they have--they're kind of like the Red Cross. 
You have to send them all your charters and all those other 
things, fiscal statements, and everything else. So that's how 
we go about it, to make sure we aren't just out subsidizing an 
organization that doesn't have any legitimacy.
    Mr. Copple. I would add that, to me, one of the real silent 
powerful forces working with the Guard in each of the States 
are the demand reduction administrators. These demand reduction 
administrators, again, it may come as a request through law 
enforcement.
    Mr. Barrett. I'm not understanding. Who is that person?
    Mr. Copple. That is an assigned staff member in each State.
    Mr. Barrett. For the National Guard?
    Mr. Copple. For the National Guard who works on demand 
reduction issues. Part of what's happened in the last couple of 
years is we've partnered with the National Guard. We've let our 
members know who those demand reduction members are. Coalitions 
are made up of law enforcement, prevention, treatment, 
education, and continuing care folk.
    It may be the district attorney in Wichita, KS, that 
contacts the demand reduction administrator and says, you know, 
we could use some help from the Guard in a variety of 
activities, and they would meet, begin to strategically plan, 
work with the local Guard unit in those respective communities 
in a variety of areas.
    Mr. Barrett. And again you used the example of building.
    Mr. Copple. Playgrounds.
    Mr. Barrett. Playgrounds. Did they actually build them or 
were they involved in it?
    Mr. Copple. They were involved in the actual building.
    What happened was the Guard--once we decided that's what we 
were going to do, and we strategically planned it, we 
identified the lumber company, the resources that were going to 
help fund it to raise the money to actually build the 
playground equipment, the volunteer Guard on weekend, the Guard 
unit was assigned, and also a Reserve unit that was attached to 
McConnell Air Force Base where we were at were also working 
side by side in this effort. The resources for it were 
generated from the private sector.
    Mr. Barrett. And the localities, how were they identified, 
and how were they approved? Were they private pieces of 
property?
    Mr. Copple. Yes. But they were properties that lapsed 
either in taxation. The city took them over. We had a major 
code enforcement measure dealing with gangs and drug issues, so 
that if properties that were being rendered or lost, and code 
enforcement was not applied, then we gave the community the 
power to take over those crack houses.
    Mr. Barrett. If you could give me more information on that 
committee, I would be very interested.
    Mr. Copple. Sure.
    General Davis. One of the things we'll do during the course 
of the years is we'll set up a letter of agreement, and this 
will be one we will just ratify it each year in terms of making 
sure it's current with all the law enforcement agencies, other 
agencies we routinely deal with. And that list will come out as 
a result of there either being a Federal agency or a--an 
organization that's been identified by the police.
    You see the orange hat coalitions. I've got an orange hat 
in my office because I've been around here in the District with 
those orange hat coalitions. And what they do is they are 
nonprofit organizations and, many times, loose associations who 
are out there trying to take their communities back. And so we 
will know who they are and we will deal with them from time to 
time. And then those requests, formal written requests come 
from the Metropolitan Police here in the District. So there's 
some process similar to that in each and every one of our 
jurisdictions so that we have an official sanction of that 
organization and the activity.
    Mr. Barrett. OK.
    General Davis. And as a reasonable script to assure 
ourselves that we're doing appropriate things with taxpayers 
money, sir.
    Mr. Barrett. Thank you very much.
    Mr. Mica [presiding]. Thank you. I had a couple of 
questions.
    General Davis, one contribution I understand the Guard is 
making to the community of Tyler, TX, is that they are 
contributing personnel and assets to the raising of former 
crack houses that have been abandoned. If you can, could you 
elaborate a bit on this program? And I would like to know if 
other communities in Texas or elsewhere have considered this 
program?
    General Davis. I want to look at my cheat sheet on Texas 
here. I don't see that particular program in Tyler. But one of 
the things that we do is we do raise crack houses, and that's a 
very involved procedure, because it takes a court order to 
declare the property a public nuisance. Then there are appeal 
opportunities and all. Once that's all done--we don't get 
involved in that. That's done typically by the local prosecutor 
or by the local, one of the local law enforcement agencies.
    Once that's done and then they come to us and make the 
written request, and if all the paperwork is in order, then we 
will do it.
    Frequently what we will try to do with that is get an 
engineer unit who has demolition as one of their requirements. 
We'll take them over there and let them do it. Now, we don't 
use any explosives or anything like that. But we will take--you 
normally--normally a ball or something like that to raise the 
crack house and then carry it away.
    So we do that in a large number of instances, not only 
raising crack houses, but we board up crack houses, whatever 
seems to be appropriate to the issue and whatever the request 
is. As I said before, the Guard does not initiate these 
activities, sir. These activities are initiated by the local 
law enforcement agencies more typically.
    Mr. Mica. Thank you.
    Mr. Brooks, as you know, a couple of months ago, the 
President of the United States has certified Mexico as 
cooperating in the war on drugs. In your experience as a law 
enforcement officer, can you describe what cooperation you have 
received from your fellow law enforcement officers across the 
border or anything you may be familiar with as far as the 
threat assessment of Mexico and its flow of drugs, illegal 
narcotics into the United States? Can you elaborate on that?
    Mr. Brooks. Yes. You know, the problem with dealing with 
Mexico right now is, it is completely internally corrupt. The 
institutions in Mexico in law enforcement, from the INCD all 
the way down to municipal police departments that we deal with 
on a regular basis, are corrupt and controlled by the ``rule of 
mordida'' or payoffs. These are agencies that we cannot, and as 
I said before, the DEA has said, that we cannot deal with these 
agencies because there is no one there that we know can be 
trusted.
    You know, this is clearly demonstrated by the discovery 
that--that INCD Director General Guitierrez-Rebollo was 
completely compromised and corrupt and had been placed in 
charge of what their equivalent of DEA would be. We know that 
our 2,000 mile border with the United States and Mexico makes 
us extremely vulnerable to drug trafficking from Mexico, that 
Mexico is not only a producing nation of marijuana and of opium 
and heroin, but it's also a transshipment point for precursor 
chemicals for the manufacturer of methamphetamine, for steroid, 
and for heroin, and cocaine from other source countries. So, 
you know, we're extremely vulnerable with Mexico. We receive no 
cooperation, no credible cooperation.
    The threat to our Nation's security and our Nation's drug 
problems from Mexico is extremely real. And we know that, in 
California, we face drug cartels that are run directly out of 
Mexico on a daily basis. On a daily basis, we have Mexican drug 
cartels coming in to San Diego and Imperial Counties and 
carrying out their drug trafficking in hits. And we know that 
the drug cartels, especially the Arellano Felix group, has 
employed American citizens, drug gang members from Logan 
Heights and other neighborhoods in San Diego to carry out 
murders and witness intimidation.
    Mr. Mica. I appreciate your insight.
    One of the other questions I had, I guess you are from the 
California area and represent the Narcotics Officers' 
Association there. There is a study, I guess it was a Rand 
study recently sort of blasting the mandatory, minimum 
mandatory sentences and also advocating more emphasis on 
treatment programs for offenders. I don't know if you know the 
details of that report. I haven't seen it. But what is your 
opinion on that? Should we do away with minimum mandatory 
sentences for drug dealers, and should we put more of our eggs 
in the treatment basket?
    Mr. Brooks. Well, I haven't read the report, but I've 
certainly read the newspaper coverage on the Rand report. And 
you know, it's my position and the position of our association 
that if we're going to be successful in our Nation's fight 
against drug abuse, then we're going to have to do so through a 
comprehensive approach. That we can't put all our eggs in any 
one single basket.
    As a law enforcement officer, you know, certainly I believe 
in strong drug enforcement, but I would never be so naive as to 
believe that we don't absolutely need treatment and education, 
because without education and treatment, we're never going to 
win this. We're never going to win this battle.
    So we feel that--you know, there are studies in California 
and New Jersey where 76 percent of all the youth that choose 
not to use drugs in this Nation say they don't use drugs 
because they're afraid of getting caught. They don't want the 
consequences of law enforcement. So we know that education, the 
treatment and that enforcement in partnership can have an 
impact on our drug problem.
    Mr. Mica. I appreciate your response. I will now recognize 
Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I appreciate you gentlemen being here today, and I 
apologize that I couldn't have been here earlier. I want to 
kind of run through some points very quickly to get them on the 
record that I am concerned about.
    I have a 15-year-old daughter and an 11-year-old son. I 
represent a district in Phoenix, AZ, and I am gravely concerned 
about the effect of the increased flow of drugs in this 
society.
    I want to start with the first one, which is a factual one. 
I want to ask each of you to confirm, it is my understanding, 
and I want you to confirm for me that it is also your 
understanding, that in the President's budget proposal right 
now before us, his budget calls for a reduction in the funding 
of this category of interdiction by roughly 26 percent from the 
current number to a number of about $132.4 million down from a 
$179.9 million.
    Is that your understanding, Governor Owen or Lieutenant 
Governor Owen?
    Mr. Owen. My understanding is the reduction. I don't know 
the specific percentages that you quoted.
    Mr. Bowers. Yes.
    Mr. Shadegg. General?
    General Davis. That's roughly the part that directly 
impacts on the State programs. The actual reduction is slightly 
larger than that, because there's some other things that are 
included.
    Mr. Shadegg. So the actual reduction is slightly larger 
than that?
    General Davis. Would be, yes, sir.
    Mr. Shadegg. And that is a reduction in interdiction funds; 
is that correct?
    General Davis. Primarily in interdiction funds, because 
that's what most of the State programs are related to.
    Mr. Shadegg. Mr. Copple, would that be your understanding?
    [Witness nodded affirmatively.]
    Mr. Shadegg. And Mr. Brooks?
    Mr. Brooks. Yes, that's correct.
    Mr. Shadegg. I have a strong belief that we have made a 
grave mistake in this country in reducing rather radically 
interdiction funding over the last several years and increasing 
drug treatment funding.
    Is it your understanding, and, again, I would like to go 
down the line that we have, in fact, in recent years reduced 
interdiction funding compared to drug treatment funding over 
the last several years and actually at the beginning of this 
administration reduced interdiction funding rather 
dramatically?
    Lieutenant Governor Owen, is that your understanding?
    Mr. Owen. I don't think that I can appropriately answer 
that question.
    Mr. Shadegg. OK. Mr. Owen--Mr. Bowers, I'm sorry.
    Mr. Bowers. Yes, that's correct.
    Mr. Shadegg. General?
    General Davis. That number has both gone down and up. You 
know, we had some money added last year, so it's kind of 
difficult.
    Mr. Shadegg. It is actually during the President's first 
year, it went from a $196--$191.6 million down to $150.3 
million. It then, you are right, did go up a couple of times. 
And in last year, an election year, again, interestingly, it 
went up to $179.9. And now in the post election year it is 
being dropped from $179.9, at least under the President's 
proposal, to $134.4. So it has gone up and down, but it is 
quite clearly down over time you would agree.
    Mr. Bowers. Are you asking----
    Mr. Shadegg. No.
    General Davis. As a general trend, it has been down, yes, 
sir.
    Mr. Shadegg. Mr. Copple.
    Mr. Copple. My answer is a little bit more complicated. I 
think we've increases in the State block grants for treatment. 
But we've seen overall decreases for treatment. We're very 
concerned. We--the similar Rand studies that have been quoted 
here show that for every dollar we spend on treatment, we save 
$7 in what we do in law enforcement. Interdiction dollars have 
gone down, but, at the same time, the treatment dollars have 
not picked up the slack.
    Mr. Shadegg. Mr. Brooks.
    Mr. Brooks. It's my understanding, also, that certainly 
dollars for interdiction are down overall.
    Mr. Shadegg. Let me ask this last question, since I am 
running out of time. I have a personal belief that we need to 
be funding interdiction, even though that fight is difficult, 
and we need to be funding prevention. I would like to see the 
children of America taught the devastation of this disease. For 
example, I would like the children of America to understand how 
much more dangerous today's drugs are than the drugs that were 
around when I was a kid. So I personally think we need to be 
emphasizing interdiction dramatically and emphasizing 
prevention dramatically.
    I guess I would be interested in your perspectives on what 
the policy of this country and this committee and this Congress 
ought to be vis-a-vis both prevention and interdiction as we go 
forward. Should we be reducing funding for those two 
objectives? Mr. Owen.
    Mr. Owen. Well, if I were king for a day, I would put 
significant resources in in both of them. If you give me the 
budget that the beer companies and the rock stars and the movie 
folks and the legalizations and the George Soros' of the world 
are spending, I can show you a reduction in the use and 
attitudes--and the change of attitudes by our young people 
today. If in fact we could do that. But you cannot do one, you 
have to do both. And you have to do it significantly. But I 
think the primary message, from my perspective in dealing with 
this for a number of years, is it's got to be consistent and 
ongoing and long-term.
    Mr. Shadegg. And not shrinking, not getting smaller over 
time.
    Mr. Owen. But I think it's a misrepresentation to say today 
the problem is Clinton's, when, in fact, if you go back over 
the history the roller coaster has been through both parties.
    Mr. Shadegg. I am not trying to pick that fight. I do, in 
fact, think this President has reduced interdiction and 
prevention and increased treatment. And we can get into a 
policy discussion of whether that is good or not. I really am 
not interested in blame pointing. I am interested in trying to 
win this fight, as much of it as we can, going forward.
    Mr. Owen. The frustration, from my perspective, is 
consistent, ongoing, long-term, planning and funding.
    Mr. Shadegg. Thank you.
    Mr. Bowers. If you consider that drugs and crime are 
inextricably intertwined, which they are, it's far worse than 
you have described. It's not your daughter and your children 
that's the problem, Congressman. It's the very social fabric of 
this country.
    Let me tell you something real quick about my home town, 
Atlanta, GA. I left there in 1959 to go to college. In 1960, it 
had a population of 485,000 people. That year, we had 67 
murders, 44 rapes, and 308 robberies. Thirty-five years later, 
the population has dropped to 404,000 within the corporate 
limits. Instead of 67 murders, we have 184. Instead of 44 
rapes, 441. Instead of 308 robberies, 5,260.
    Now, drugs and crime as to the increase of those numbers 
are just one and the same. So I would urge you not, not to 
worry about where you spend the money, but spend the dickens 
out of it, because there's nothing in this country that is as 
important as getting this whole thing under control. Prevent, 
yes. Interdict, absolutely. And we've got to trade. I don't 
hold out a lot of prospect for the efficacy in treatment in 
terms of solving the drug problem, but this is a good Nation, 
and we've got to do it because we're a good people.
    Mr. Shadegg. I agree. I couldn't agree more with your 
discussion of the issue.
    Mr. Copple. We have to do treatment.
    Mr. Bowers. For a prosecutor, it's a disaster.
    Mr. Shadegg. Could I get the other gentleman to answer 
quickly?
    Mr. Mica. There is a vote, and I would like to defer. What 
we could do is ask them if they would submit their responses in 
writing, if that's OK, Mr. Shadegg. I would like to yield for 
just a minute to the ranking member, if I might.
    Mr. Barrett. Thank you, Mr. Chairman. And just to clarify, 
just to flush out the record, I don't even like doing this but 
since Mr. Shadegg wanted to talk about the President's budget, 
as you all know, there is no Republican budget, so I would ask 
you and will go down the line too, are you aware of any formal 
submission from the Republicans to fund any National Guard drug 
money this year? Mr. Owen.
    Mr. Owen. No, I'm not.
    Mr. Bowers. Well, I'm a Republican, so I don't know whether 
this advocacy counts. But it doesn't matter. We just want the 
money to try to operate.
    Mr. Barrett. I understand. Formal submissions, do you know 
of any?
    Mr. Bowers. No, sir.
    Mr. Barrett. General Davis.
    General Davis. We are not aware of any, but we don't get 
involved.
    Mr. Barrett. I understand. I am sorry to drag you into 
this. Mr. Copple.
    Mr. Copple. No, I see no budget of that nature.
    Mr. Barrett. Thank you. Mr. Brooks.
    Mr. Brooks. I'm not aware of any.
    Mr. Barrett. All right. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Just for the record, I understand we did submit $132 
million last year for the budget. But we are out of time. I do 
ask unanimous consent--I have a letter from Governor Pete 
Wilson of California regarding the critical role that the 
California National Guard is playing in the Nation's 
counterdrug effort. Without objection, it will be made part of 
the record.
    [The letter referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Also, any Member who wishes may submit questions 
for the record.
    Also, we will, without objection, leave the record open for 
one additional week for responses.
    There being no further business, I would like to thank our 
witnesses for being with us and for your valuable contributions 
to this subcommittee and our effort, too, for the country.
    There being no further business to come before the 
subcommittee, this meeting is adjourned.
    [Whereupon, at 3 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
